No.

In the 6upretne Court of the Einiteb 6tateg
Sheri Speer, PETITIONER V.

Seaport Capital Partners, LLC

ON PETITION FOR A WRIT OF CERTIORARI
FROM THE SUPREME COURT OF THE STATE OF
CONNECTICUT

PETITION FOR A WRIT OF CERTIORARI

Sheri Speer, pro se
151 Talman Street
Norwich, CT 06360
(860) 213-2836
speercommercial@gmail.corn

-

RECEIVED
JUL - 1 2020

2uFpFUmOEF0T6-1Secalk

1

QUESTIONS PRESENTED
The Fifth and Fourteenth Amendments protect
Americans from being having their liberty and property
interests stripped from them unless they are afforded due
process of law, and the right to have counsel they retained
present in court prior at a hearing for that purpose.
The questions presented are as follows:
Did the Trial Court improperly enter an order
denying the Petitioner access to the State Courts
without due process of law?
Did the Trial Court violate the Petitioner's Fifth
and Fourteenth Amendment '13rotected rights to
have her counsel present when it entered
injunctive relief against the petitioner?

(I)

PARTIES TO THE PROCEEDING

The Petitioner is Sheri Speer, who is proceeding pro se.
Respondents are Seaport Capital Partners, LLC,
United States Trustee Thomas Boscarino, Receiver Edward
Bona, and Dr. Michael Teiger.

TABLE OF CONTENTS
Page
Opinions below
1
Jurisdiction
1
Statutory provisions involved
2
Statement
2
Reasons for granting the petition
3
A.The Petitioner was Denied Due Process, and the
Decisions under review do not comport with this Court's
holdings
3
The Questions Presented are Issues of First Impression of
Exceptional Importance
4
Conclusion

5

Appendix A — Connecticut Appellate Court Opinion
(Nov. 26, 2019)
la
Appendix B — Connecticut Appellate Court Decision Denying
Reconsideration En Banc
2a
Appendix C — Connecticut Supreme Court Order Granting
Extension to Petition for Certification
3a
Appendix D — Connecticut Supreme Court Order Denying
Petition for Certification

4a

TABLE OF AUTHORITIES
Cases:
Gideon v. Wainwright
372U.S.335(1963)
Turner v. Rogers
564U.S.431(2011)
Morrissey v. Brewer
408U.S.471,481(1982)
Board of Regents v. Roth
408 U.S. 564, 569-71 (1972)
Matthews v Eldridge
424 US 332 (1976)
Powell v Alabama
287 US 68 (1932)

3
3
3,4
3
3
4

IV
Statutes
28 U.S.C. 1257(a)
Conn. Gen. Statutes 452-471

Page
1
2

Sin fly 6upreine Court of die Eniteb &tato
No.
SHERI SPEER, PETITIONER
v.
SEAPORT CAPITAL PARTNERS, ET AL.

ON PETITION FOR A WRIT OF CERTIORARI
FROM THE CONNECTICUT SUPREME COURT

PETITION FOR A WRIT OF CERTIORARI

Sheri Speer, pro se, respectfully petitions for a writ
of certiorari to review the judgments of the
Connecticut Appellate Court and the Connecticut
Supreme Court's denial of her petition for certification to
appeal there, affirming the decision of the Connecticut
Appellate Court.
OPINIONS BELOW
The opinion of the Connecticut Appellate Court in
Docket Number AC 41879 is at 194 CA 902 (2019), per
curiam, with the Connecticut Supreme Court's order
declining to review at 335 C 903 (2020)
JURISDICTION
The judgment of the Connecticut Appellate Court
entered November 26, 2019. Timely motion to reconsider
there, en banc, was denied January 16, 2020. The
Connecticut Supreme Court extended to the time to
petition it for certification, which was filed February 24,
2020 and denied March 11, 2020. The jurisdiction of this
Court is invoked under 28 U.S.C. 1257(a).

(1)

2
STATUTORY PROVISIONS INVOLVED
This case specifically involves Connecticut General
Statutes 452-471, in that the trial court entered an
injunction against the Petitioner filing any papers in any
court unless or until she paid sanctions to
Respondent Seaport Capital Partners, LLC.
STATEMENT
This case is profoundly unusual in that a state court judge
granted Seaport Capital Partners, LLC ("Seaport") injunctive
relief it never asked for without bond, without affidavit and
in a manner that usurped cases pending in other judicial
districts that did not involve or affect Seaport in any way. The
trial court also did it without counsel retained by the
Petitioner present in the courtroom. Seaport made no
application for an injunction. Seaport presented no witnesses.
Seaport neither took or introduced any testimony in support
of the application for injunctive relief it never filed.
The trial court also did it with Petitioner's counsel,
Attorney Katherine Sylvestre, not present to challenge the
fact that no witnesses were called, no evidence was presented
and no such order was in fact applied for as Connecticut
General Statutes §52-471 required.
The result was confused courts and clerks in the Hartford
and New London judicial districts as the trial court granted
relief that Seaport never asked for. The interpretation of the
order on appeal itself is confusing and problematic as no
reviewing court has taken the occasion to delineate or explain
it, and the trial court has continued to change and
modify it post-appeal, no one prompting or requesting it do
SO.

Counsel for Seaport, Donna Skaats, has used the
ambiguity of the order to appear on Seaport's behalf in a
foreclosure case involving the Petitioner's home in an
attempt to lock her out of defending or resolving that case as
well.

3
REASONS FOR GRANTING THE PETITION
This case provides a superior vehicle for
clarifying an area of law well understood within a
criminal or juvenile context - the right to counsel.
This Court specifically found that the right to counsel
purposes
of
criminal
attached
for
the
prosecutions when it decided Gideon v. Wainwright, 372
U.S. 335 (1963). This Court, justly, eventually expanded
the recognized right to have counsel present when
liberty interests are at stake in Turner v. Rogers, 564
U.S. 431 (2011), when it found that the right to have
counsel present attached when failure to pay child
support would deprive the petitioner there of his liberty
interest to be free.
This Petitioner submits that the right to have access
to the courts is, in fact, a liberty interest. So is procedural
due process of law, which the Petitioner as profoundly
denied.
A.The Petitioner was Denied Due Process, and the
Decisions under review do not comport with this Court's
holdings.

There is no question that the language of the
Fourteenth Amendment requires the provision of due
process when an interest in one's "life, liberty or property"
is threatened. Morrissey v. Brewer, 408 U.S. 471, 481 (1982).
"The requirements of procedural due process apply

4
only to the deprivation of interests encompassed by the
Fourteenth Amendment's protection of liberty and
property. When protected interests are implicated, the
right to some kind of prior hearing is paramount...."
Board of Regents v. Roth, 408 U.S. 564, 569-71 (1972).
The unconstitutional order not only entered, but it did
so on the lack of any constitutional procedure.
"Procedural due process imposes constraints on
governmental decisions which deprive individuals of
"liberty" or "property" interests within the meaning of
the Due Process Clause of the Fifth or Fourteenth
Amendment." Matthews v Eldridge 424 US 332 (1976).
The "right to be heard before being condemned to suffer
grievous loss of any kind, even though it may not
involve the stigma and hardships of a criminal
conviction, is a principle basic to our society." Id, 333.
The injunctive relief entered by the trial court without
an application, without evidence, without demonstration
of irreparable harm absent said injunctive relief and
entirely outside the standards, requirements and
conditions established by Connecticut Law (452-471)
constituted a wholesale denial of procedural or
substantive due process of any kind.
B. The Questions Presented are Issues of First
Impression of Exceptional Importance.
The right to be heard through counsel ought to
be axiomatic. "It never has been doubted by this court,
or any other, so far as we know, that notice and hearing
are preliminary steps essential to the passing of an
enforceable judgment, and that they, together with a
legally competent tribunal having jurisdiction of the
case, constitute basic elements of the constitutional
requirement of due process of law. The words of
Webster, so often quoted, that, by "the law of the land"
is intended "a law which hears before it condemns" have
been repeated in varying forms of expression in a
multitude of decisions." Powell v Alabama, 287 US 68
(1932).

5
This is not a case where the Petitioner is asking for
counsel to be appointed for her. This is a case where
Attorney Slyvestre was retained. She appeared, and still has
an appearance on file. She never withdrew. The trial court
neither inquired as to her whereabouts or took any actions
to continue the proceedings until she could be present. The
oddity, further, is that the underlying injunction entered
against the Petitioner kept counsel herself from challenging
it.
This Court is usually confronted with questions seeking
to expand the right to appoint counsel. This case is unusual
because it involves the right to have privately retained
counsel present prior to adjudication to a substantial liberty
interest.
This Court absolutely must decide the question of
whether or not Americans have the right to be represented
by counsel that they hire, they choose and they pay for, and
under what circumstances, if any, and for what reasons a
court should proceed without counsel present. This is a
critical issue of first impression.
CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,
/s/
Dated this 17th day of April, 2020
Sheri Speer, pro se
151 Talman Street
Norwich, CT 06360
(860) 213-2836
speercommercial@gmail.com

